     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




  U.S. Agencies Have Provided Training and Support to
  Afghanistan’s Major Crimes Task Force, but Reporting
    and Reimbursement Issues Need to be Addressed




                                          July 19, 2011


SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force
OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 19, 2011

Executive Departments and Agencies:

This report discusses the results of an audit of U.S. efforts to strengthen Afghanistan’s Major Crimes
Task Force (MCTF). This report includes two recommendations to improve financial reporting and
accountability of U.S. assistance for the MCTF.

When preparing the final report, we considered comments from the Federal Bureau of Investigation, the
U.S. Embassy in Kabul, the Department of State’s Bureau of International Narcotics and Law
Enforcement Affairs (INL), and the NATO Training Mission – Afghanistan/Combined Security Transition
Command – Afghanistan (NTM-A/CSTC-A), which are reproduced in appendices III-VI of this report. The
U.S. Embassy, INL, and CSTC-A supported our recommendations and noted actions taken to address
them.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181,
as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force                                   Page i
List of Addressees

The Honorable Hillary Rodham Clinton
Secretary of State

The Honorable Leon E. Panetta
Secretary of Defense

The Honorable Eric H. Holder, Jr.
Attorney General

General James N. Mattis
Commander, U.S. Central Command

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

Mr. Robert S. Mueller, III
Director, Federal Bureau of Investigation,
  Department of Justice

Mr. David T. Johnson
Assistant Secretary, Bureau of International Narcotics
  and Law Enforcement Affairs
  U.S. Department of State




SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force   Page ii
                SIGAR
                                                           SIGAR Audit-11-12                                          July 2011
                                                            U.S. Agencies Have Provided Training and Support to
                                                            Afghanistan’s Major Crimes Task Force, but Reporting
                                                              and Reimbursement Issues Need to be Addressed
Special Inspector General for Afghanistan Reconstruction


What SIGAR Reviewed
Corruption continues to be a significant problem in Afghanistan. To help fight corruption, the Afghan government
established the Major Crimes Task Force (MCTF) in 2009 as the principal Afghan government agency responsible
for investigating and processing major anti-corruption, kidnapping, and organized crime cases. In particular, the
MCTF conducts corruption investigations of high-level Afghan government officials. U.S. government agents,
primarily from the Federal Bureau of Investigation (FBI), mentor and train Afghan investigators who are assigned
to the MCTF. SIGAR conducted this audit to (1) determine the nature and extent of U.S. assistance for the MCTF
and (2) evaluate whether U.S. assistance was provided in accordance with applicable laws and regulations. This
report is part of a series of audits by SIGAR addressing U.S. government efforts to strengthen anti-corruption
capabilities of the Afghan government. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from
September 2010 to July 2011, in accordance with generally accepted government auditing standards.




What SIGAR Found
The U.S. government has provided at least $15.5 million to assist the MCTF through fiscal year 2010, including
refurbishing and maintaining its facilities and training and mentoring its investigators. Funding for fiscal year 2011
is expected to total $24 million. The Department of Defense (DOD) has provided the majority of funding for U.S.
assistance to the MCTF. DOD manages MCTF funding through the Combined Security Transition Command-
Afghanistan (CSTC-A). Other U.S. government agencies, including the Department of State’s Bureau of
International Narcotics and Law Enforcement Affairs (INL), the FBI, and the Drug Enforcement Administration,
have also provided assistance to the MCTF. As of November 2010, the FBI had assigned 14 staff to the MCTF with
DOD funding and funded 6 additional mentor positions at its own cost. In addition, as of November 2010, there
were 163 Afghan personnel assigned to the MCTF.
In accordance with applicable laws and regulations, DOD provided funding to the FBI and INL to support the MCTF
through interagency agreements. To obligate DOD funds, the FBI and INL signed memoranda of understanding
with the Defense Security Cooperation Agency (DSCA). SIGAR found several problems with the accountability
over U.S. assistance to the MCTF. First, DSCA and the FBI had not de-obligated $1.6 million in unused funds for the
MCTF that expired as of September 30, 2010. Second, INL has not provided DOD required reporting for
$6.2 million in funds used for MCTF operations and maintenance. Third, CSTC-A and INL do not yet have a system
to charge and collect reimbursements from international partners receiving services at MCTF facilities, as
required.


What SIGAR Recommends
Our draft of this report included a recommendation that the FBI de-obligate its unused MCTF funds. In commenting on
a draft of this report, the FBI provided documentation that it had de-obligated the $1.6 million. As a result, SIGAR
deleted the recommendation. SIGAR is making two other recommendations to INL. First, to improve
accountability over U.S. assistance to the MCTF, SIGAR recommends that INL provide an accounting of the $6.2
million transferred to INL for operations and maintenance, in compliance with the terms of its agreement with
DOD to provide quarterly financial reporting. Second, to ensure that the U.S. government is reimbursed, as
appropriate, for some of the costs of assistance to the MCTF, SIGAR recommends that INL, in consultation with
CSTC-A, bill and collect funds from non-U.S. international personnel receiving services at MCTF facilities. In
commenting on a draft of this report, the U.S. Embassy in Kabul, INL, and CSTC-A supported these
recommendations and noted some actions taken to address them.

                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force                                                         Page iii
TABLE OF CONTENTS

Background ................................................................................................................................................... 1
U.S. Agencies Have Provided at Least $15.5 Million to Help Establish and
    Maintain MCTF Facilities and Train and Mentor Afghan Investigators .................................................. 3
Although U.S. Assistance Was Generally Provided in Accordance with Applicable
    Laws and Regulations, Financial Accountability Could Be Improved ..................................................... 5
Conclusion ..................................................................................................................................................... 7
Recommendations ........................................................................................................................................ 7
Comments ..................................................................................................................................................... 7
Appendix I: Scope and Methodology ........................................................................................................... 8
Appendix II: Organizational Structure of the Major Crimes Task Force (MCTF) .......................................... 9
Appendix III: Comments from the Federal Bureau of Investigation .......................................................... 11
Appendix IV: Comments from the U.S. Embassy in Kabul ......................................................................... 13
Appendix V: Comments from NATO Training Mission-Afghanistan/Combined
   Security Transition Command-Afghanistan.......................................................................................... 15
Appendix VI: Comments from Bureau of International Narcotics and Law
   Enforcement Affairs ............................................................................................................................. 16


TABLES

Table 1: U.S. Obligations and Disbursements for the MCTF, as of September 30,
    2010 ($ in millions) ................................................................................................................................. 4
Table 2: FBI Training Objectives for MCTF Investigators in Fiscal Year 2010................................................ 5


FIGURES

Figure 1: Budgeting, Funding, and Approval Process for Assistance to the MCTF ....................................... 3
Figure I: MCTF Organizational Structure....................................................................................................... 9




SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force                                                                                     Page iv
ACRONYMS

CSTC-A                  Combined Security Transition Command-Afghanistan
DEA                     Drug Enforcement Administration
DOD                     Department of Defense
DOJ                     Department of Justice
DSCA                    Defense Security Cooperation Agency
FBI                     Federal Bureau of Investigation
INL                     Bureau of International Narcotics and Law Enforcement Affairs
MCTF                    Major Crimes Task Force
MOA                     Memorandum of Agreement
MOI                     Ministry of Interior
MOU                     Memorandum of Understanding
NDS                     National Directorate of Security
SIGAR                   Special Inspector General for Afghanistan Reconstruction
State                   Department of State




SIGAR Audit-11-12 Anti-Corruption / Afghan Major Crimes Task Force                      Page v
    U.S. Agencies Have Provided Training and Support to Afghanistan’s Major
   Crimes Task Force, but Funding and Reporting Issues Need to be Addressed


Corruption continues to be a significant problem in Afghanistan. To help fight corruption, the Afghan
government established the Major Crimes Task Force (MCTF) in 2009. The MCTF is the principal Afghan
government agency responsible for investigating and processing major anti-corruption, kidnapping, and
organized crime cases. U.S. government agents, primarily from the Federal Bureau of Investigation
(FBI), mentor and train Afghan investigators from the Afghan Ministry of Interior (MOI) and the National
Directorate of Security (NDS) who are assigned to the MCTF. In particular, the MCTF conducts
corruption investigations of high-level Afghan government officials. U.S. agents provide Afghan
counterparts with investigative and legal advice and training without being directly involved in
investigations or prosecutions. The U.S. government has provided the MCTF with at least $15.5 million
in assistance through fiscal year 2010 and expects to provide $24 million during fiscal year 2011.

This report is part of a series of audits by the Office of the Special Inspector General for Afghanistan
Reconstruction addressing U.S. government efforts to strengthen anti-corruption capabilities of the
Afghan government. Specifically, we (1) determined the nature and extent of U.S. assistance for the
MCTF and (2) evaluated whether U.S. assistance was provided in accordance with applicable laws and
regulations.

To determine the extent of U.S. assistance to the MCTF, we reviewed various documents including
inter-agency agreements and billing statements, and specific agency-reported expenditures. To
determine whether U.S. assistance to the MCTF was provided in accordance with applicable laws and
regulations, we reviewed applicable laws and regulations and met with U.S. officials in Washington, D.C.,
from the Department of Justice, the FBI, and the Department of State’s (State) Bureau of International
Law Enforcement and Narcotics (INL) to discuss their responsibilities, activities, progress, and funding for
the MCTF. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from September 2010
to July 2011, in accordance with generally accepted government auditing standards. A discussion of our
scope and methodology is in appendix I.


BACKGROUND

Corruption within Afghan society has been widely described as pervasive, entrenched, and systemic. For
example, Transparency International ranked Afghanistan the third most corrupt country in the world in
2010—a 2010 Transparency International survey indicated that 39 percent of Afghans believed that
their government has been ineffective in fighting corruption.

To help fight corruption, the Afghan government established the MCTF in 2009 as a joint initiative
between Afghanistan’s MOI and NDS. The MOI planned for the MCTF to be the prototype of the Afghan
version of the FBI. The MCTF is staffed by MOI and NDS investigators who work together to investigate



SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                          Page 1
crimes and develop cases for prosecution by the Afghan Attorney General’s Office. The task force
consists of three investigative units that focus on senior-level corruption, organized criminal networks,
and high-profile kidnappings. (See appendix II for more details on how the MCTF is organized.)

The Department of Defense (DOD) has provided the majority of funding for U.S. assistance to support
the MCTF. The source of DOD funds for the MCTF is the Afghanistan Security Forces Fund and
authorization to use the funds rests with DOD’s Combined Security Transition Command-Afghanistan
(CSTC-A). 1 Other U.S. government agencies, including INL, the FBI, and the Drug Enforcement
Administration (DEA), have also provided assistance to the MCTF. U.S. and international law
enforcement personnel, primarily from the FBI, have been posted to Afghanistan to mentor and train
Afghan investigators assigned to the MCTF. Mentoring consists of providing Afghan counterparts with
investigative and legal advice without being directly involved in investigations or prosecutions. Training
consists of formal classroom training concerning investigative techniques and best practices. Current
plans call for the U.S. government to continue providing direct funding assistance to the MCTF until
December 2012, at which time the Afghan government would assume funding.

The Economy Act (31 U.S.C. 1535) provides the authority for federal agencies to enter into funding
agreements with each other The act provides that an agency may place an order with a major
organizational unit within the same agency or another agency for goods or services if:

    a) amounts are available;
    b) the ordering agency decides that the order is in the best interest of the U.S. government;
    c) the agency to fill the order is able to provide or get by contract the ordered goods or services;
       and,
    d) the agency determines ordered goods or services cannot be provided by contract as
       conveniently or cheaply by a commercial enterprise.

According to a DOD official, to provide funds from DOD for goods and services to support the MCTF,
DOD needed to sign interagency agreements with the FBI and INL. First, the Office of the Secretary of
Defense 2 signed memoranda of agreement (MOA) with the FBI and INL in 2009. According to a DOD
official, MOAs were required because CSTC-A is procuring goods and services outside of DOD. The MOA
provided a budget planning estimate; it did not provide authority to commit any funding. The FBI signed
an MOA in August 2009, and INL signed one in October 2009. Second, to obligate DOD funds, the FBI
and INL signed memoranda of understanding (MOU) with the Defense Security Cooperation Agency
(DSCA). The MOU is the obligating document once DSCA and the agency involved sign the document.
DSCA processes accounting for the funding, but does not make any decision on how the funding is used.
DSCA signed MOUs with the FBI and INL in September 2009 and October 2009, respectively. Figure 1
illustrates the flow of DOD funding through the FBI and INL to support MCTF.




1
  CSTC-A executes the overall Afghan National Security Forces Development Program and has authority over DOD-
funded efforts to organize, train, and equip the Afghan security forces, including the Afghan National Police, of
which the MOI portion of MCTF is a part. CSTC-A does not fund the NDS personnel assigned to MCTF.
2
  The agreements were signed by the Deputy Assistant Secretary of Defense for Afghanistan, Pakistan, and Central
Asia.
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                                Page 2
Figure 1: Budgeting, Funding, and Approval Process for Assistance to the MCTF




Source: SIGAR analysis of interagency agreements provided by DOD, FBI, and INL.




U.S. AGENCIES HAVE PROVIDED AT LEAST $15.5 MILLION TO HELP ESTABLISH AND MAINTAIN
MCTF FACILITIES AND TRAIN AND MENTOR AFGHAN INVESTIGATORS

The U.S. government has provided at least $15.5 million to assist the MCTF through fiscal year 2010,
including refurbishing and maintaining its facilities and training and mentoring its investigators.
Regarding funding for MCTF facilities, in April 2010 the task force moved to its current location at Camp
Falcon, a U.S.-funded facility located near Kabul International Airport. DOD provided $1.9 million to
refurbish MCTF facilities. DOD also provided $6.2 million to maintain and operate MCTF facilities at
Camp Falcon through a contract managed by INL. Through its contract with DynCorp International, INL
operates and maintains MCTF’s Camp Falcon facilities, including providing housing, life support, and
security for MCTF personnel and international advisors. Regarding funding for U.S. mentors, DOD
reimbursed the FBI for $2.3 million in costs associated with providing U.S. agents to the MCTF. The FBI
also used about $4.6 million of its own funding for additional U.S. mentors above the number covered
by DOD’s funding. DEA reported providing approximately $500,000 for specialized mentoring and
training for MCTF investigators. Table 1 provides a breakdown, as of September 30, 2010, of U.S.
assistance to the MCTF. U.S. assistance to the MCTF is projected to total $24 million during fiscal year
2011.
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                        Page 3
        Table 1: U.S. Obligations and Disbursements for the MCTF, as of
        September 30, 2010 ($ in millions)
        Funding Agency         Purpose                           Obligated              Disbursed

                               Facility refurbishment
        DOD                                                         $1.9                     $1.9
                               and start-up costs

                               Food and lodging
        DSCA through INL                                            $6.2                     $6.2
                               services

                               Training and
        DSCA through FBI                                            $3.9                     $2.3
                               mentoring

                               Costs of additional
        FBI                    agents not covered by                $4.6                     $4.6
                               DOD agreement

                               Specialized mentoring
        DEA (estimated)                                             $0.5                     $0.5
                               and training

        Total                                                      $17.1                   $15.5
        Source: SIGAR analysis of DOD, FBI, INL, and DEA data.
        Note: Totals do not include salary support for MCTF investigators funded through the Law
        and Order Trust Fund for Afghanistan. Although the United States is a major contributor to
        Law and Order Trust Fund for Afghanistan, we were unable to determine the amount of U.S.
        contributions used specifically to fund the salaries of MCTF personnel because Law and Order
        Trust Fund for Afghanistan funds from various donors are commingled.

The FBI developed a 5-year strategic plan to guide the MCTF’s development and to assess the FBI’s
performance against goals and targets from 2009 through 2014. As part of its 5-year plan, the FBI was
to fill 11 U.S. positions during 2010, including 1 assistant legal attaché and 10 FBI mentors. As of
November 2010, the FBI had assigned 1 assistant legal attaché, and 4 1-year and 9 short-term mentors
to the MCTF with DOD funding. Further, the FBI funded 6 additional mentor positions at its own cost.
Although the number of FBI mentors at Camp Falcon varied throughout the year due to scheduled leave,
redeployments, etc., the number of positions filled collectively exceeded the staffing objective for 2010.
The 5-year plan also called for a total of 180 Afghan personnel to be assigned to the MCTF (120 from
MOI and 60 from NDS). As of November 2010, there were 163 Afghan personnel assigned to the MCTF
(100 from MOI and 63 from NDS). FBI mentors were required to vet all Afghan personnel assigned to
the MCTF by conducting polygraph examinations to verify that they had no known ties with terrorist,
extremist, or anti-government organizations.




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                            Page 4
The FBI’s 5-year plan included the provision of specific training objectives for MCTF investigators in basic
and specialized investigative skills. Table 2 illustrates the FBI’s coursework objectives for 2010.


        Table 2: FBI Training Objectives for MCTF Investigators in Fiscal Year 2010
        Basic objectives                                Specialized objectives

        Interview and interrogation                     Kidnapping investigations
        Basic investigator training                     Transnational organized crime
        Source development                              Public corruption
        Law enforcement safety and survival             Law enforcement executive development
                                                        seminar
        Source: FBI 5-year plan for the MCTF.

As of November 2010, FBI mentors, in conjunction with international mentors, had instructed courses in
all of the above categories. Some courses were taught multiple times. In all, the mentors taught
48 courses with 1,098 graduates. MOI and NDS leaders stated that the FBI’s mentorship and training
were invaluable in developing their investigators’ skills. Similarly, each of the international mentors
spoke highly of the FBI’s efforts in developing and conducting training courses.


ALTHOUGH U.S. ASSISTANCE WAS GENERALLY PROVIDED IN ACCORDANCE WITH APPLICABLE
LAWS AND REGULATIONS, FINANCIAL ACCOUNTABILITY COULD BE IMPROVED

In accordance with the Economy Act, DOD provided funding to the FBI and INL through interagency
agreements to support the MCTF. However, we found several problems with the accountability over
U.S. assistance to the MCTF. First, DSCA and the FBI had not de-obligated $1.6 million in expired,
unused DOD funds. Second, INL has not complied with the terms of its interagency agreement with
DOD that require quarterly reporting on DOD’s funds. Third, CSTC-A and INL do not yet have a system to
charge and collect reimbursements from international partners receiving services at MCTF facilities.

DOD and FBI Had about $1.6 Million in Unexpended Obligations No Longer Available for the
MCTF

DSCA provided the FBI with $3.9 million for mentoring and training activities at the MCTF through fiscal
year 2010; however, according to the FBI it had expended only $2.3 million as of September 30, 2010,
leaving a balance of about $1.6 million. According to the MOA between DOD and the FBI, the funding
expired on September 30, 2010. 3 DOD’s Financial Management Regulation requires DOD agencies to
reconcile the obligation status of funding provided and de-obligate any unused funds, as needed, prior




3
 The MOA between DOD and FBI states that “the [fiscal year] 2009-2010 Afghanistan Security Forces Fund
currently expires for new obligations on September 30, 2010. In accordance with P.L. 111-32, these funds must be
obligated by that date. If obligated on a contract, the period of performance must not exceed one year. Any
unused funds will be returned prior to September 30, 2010 or September 30 of the appropriate fiscal year. The FBI
will keep complete records and exercise due diligence in the use of funds provided under this MOA.”
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                               Page 5
to the expiration of the availability of those funds in order to ensure that funds are put to better use. 4
This regulation requires that funds be de-obligated by both the requesting and servicing agencies (in
other words, by DSCA and the FBI). DSCA did not de-obligate the unexpended obligations before they
expired because the FBI had not submitted its final billing by September 30, 2010. Consequently, we
found that $1.6 million in obligated funds were no longer available for MCTF assistance and should be
de-obligated.

INL Has Not Provided DOD Required Reporting for $6.2 Million in DOD Funds Used for MCTF
Operations and Maintenance

DOD provided INL with $6.2 million for operations and maintenance of MCTF facilities at Camp Falcon;
however, INL has not provided DOD with a full accounting for these funds, as required by their MOA.
Specifically, the agreement required INL to provide DOD and CSTC-A with quarterly reports of goods and
services provided, including accounting or audit information concerning the funding received. However,
DOD and CSTC-A officials stated that they had not received any such reporting from INL. An INL official
stated that INL had been submitting quarterly reports to DOD regarding the overall DynCorp
International contract, but that those reports did not include accounting data specifically for operations
and maintenance of Camp Falcon. An INL official indicated that INL would begin to include this
information in future quarterly reporting to DOD. According to officials from DOD and CSTC-A, further
funding to INL was suspended until INL accounted for the $6.2 million that it received from DOD.

DOD and INL Not Charging International Law Enforcement Partners for Services at Camp
Falcon

The MOA between DOD and INL states that any personnel using Camp Falcon facilities who are not
Afghan National Police or their mentors should provide reimbursement for facilities and services used.
Therefore, according to CSTC-A and INL, all non-U.S. international personnel using the Camp Falcon
facilities should be charged for those services. In November 2010, there were seven non-U.S.
international personnel from the United Kingdom, France, Australia, and Canada living at the MCTF
Camp Falcon facility. As of March 2011, INL and CSTC-A had not yet developed a system for charging
non-U.S. international personnel at Camp Falcon. As a result, the U.S. government has not been
reimbursed for some of the costs of assistance to the MCTF. An Army Budget Office analysis in October
2010 determined that basic life support costs for U.S. forces in Afghanistan averaged about $100 per
day. At this rate, charges for the seven non-U.S. international personnel utilizing Camp Falcon facilities
could total as much as $210,000 per year. 5




4
 According to DoD Financial Management Regulation Volume 11A, Chapter 3, section 030404, funds must be
de-obligated by both the requesting and servicing agency to the extent that the servicing agency or unit filling the
order has not (1) provided the goods or services, or (2) entered into an authorized contract with another entity to
provide the requested goods or services.
5
  Calculation: $100 x 7 personnel x 300 days (assuming most expatriates spend about 65 days per year out of
country).
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                                   Page 6
CONCLUSION

During the MCTF’s first year of operation, U.S. assistance has contributed to advances in the MCTF’s
capability and capacity. Despite identifying some areas for improving financial accountability and
reporting, SIGAR found that FBI mentors and trainers were meeting interim objectives in the areas of
staffing and training. The MCTF’s future success will depend on its continued support from the
international community, and more importantly, the Afghan government.


RECOMMENDATIONS

To improve accountability over U.S. assistance to the MCTF, we recommend that the Assistant Secretary
of State for International Narcotics and Law Enforcement Affairs:

    1. Provide an accounting, as required by the MOA between the Office of the Secretary of Defense
       and INL, of the $6.2 million already transferred to INL to cover operations and maintenance
       costs for the MCTF Camp Falcon facility.

To ensure that the U.S. government is reimbursed, as appropriate, for some of the costs of assistance to
the MCTF, we recommend that the Assistant Secretary of State for International Narcotics and Law
Enforcement Affairs, in consultation with the Commanding General of CSTC-A:

    2. Develop and implement a system to bill, collect, and appropriately use such funds received from
       non-U.S. international personnel receiving services at the MCTF Camp Falcon facility.


COMMENTS

The FBI, the U.S. Embassy in Kabul, CSTC-A, and INL provided written comments on a draft of this report.
Those comments are included in appendices III, IV, V, and VI, respectively. The FBI, DSCA, and DOD also
provided technical comments to the draft report, which we incorporated into the final report, as
appropriate.

In its comments, the FBI concurred with SIGAR’s observations regarding the staffing and mentoring that
it provided to the MCTF. Our draft of this report included a recommendation that the FBI de-obligate its
unused MCTF funds. Because the FBI subsequently did so, we deleted the recommendation.

In their comments, the U.S. Embassy and INL indicated that INL had implemented the first
recommendation by submitting an accounting of the expenditures covering operations and
maintenance costs for the MCTF Camp Falcon facility. However, in reviewing the documentation
provided, we determined that it did not present information on the goods or services provided with the
$6.2 million or indicate how the funds were allocated, as required by the MOA.

The U.S. Embassy and INL’s comments also supported the second recommendation, indicating that
CSTC-A and INL had taken some actions to address it. In addition, CSTC-A concurred with this
recommendation and indicated that, as of April 29, 2011, the Department of State has taken over full
responsibility for Camp Falcon operations and maintenance.




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                       Page 7
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. funding to support Afghanistan’s Major Crimes Task Force (MCTF). The
objectives of the audit were to (1) determine the nature and extent of U.S. assistance for the MCTF, and
(2) evaluate whether U.S. assistance was provided in accordance with applicable laws and regulations.

To determine the extent of U.S. assistance to the MCTF, we reviewed various documents including
inter-agency agreements and billing statements, and specific agency-reported expenditures for the
period May 27, 2009 to September 30, 2010. The inter-agency agreements, and their amendments,
between the Department of Defense (DOD) and the Federal Bureau of Investigation (FBI), and between
DOD and the Department of State’s Bureau of International Narcotics and Law Enforcement Affairs
(INL), committed various funding amounts for MCTF support. The billing statements provided evidence
of expenditures by the FBI and INL in support of the MCTF. Further, we reviewed specific agency-
reported expenditures in support of the MCTF from the FBI, the DOD Combined Security Transition
Command-Afghanistan (CSTC-A), and the Drug Enforcement Administration (DEA). To verify the
accuracy of computer-generated expenditure data, we compared data provided by the requesting
agency (DOD) with data from the servicing agencies (FBI and INL), traced reported amounts to source
documents, and reconciled any differences. To determine the nature of FBI’s assistance to the MCTF,
we reviewed planning documents that the FBI created including a MCTF 5-year development plan and a
MCTF Concept of Operations. Further, we reviewed FBI-published monthly progress reports, which
included data on MCTF activities and investigator training. From October 2010 to December 2010, we
conducted fieldwork in Kabul, Afghanistan. We met with U.S. officials in Kabul, Afghanistan, and several
times with officials from Department of Justice, the FBI, INL, and the DOD CSTC-A to discuss their
responsibilities, activities, progress, funding, and challenges in standing up and strengthening the MCTF.
We visited the MCTF facility at Camp Falcon in Kabul, Afghanistan, and observed the newly renovated
facility where the MOI and NDS conduct MCTF operations.

To determine whether U.S. assistance to the MCTF was provided in accordance with applicable laws and
regulations, we reviewed applicable laws and regulations and met with U.S. officials in Washington, D.C.,
from the Department of Justice, the FBI, and INL to discuss their responsibilities, activities, progress, and
funding for the MCTF. We did not assess the applicability of Afghan law on U.S. government efforts
regarding the MCTF. Also, we did not audit the contract between INL and DynCorp or interview any
DynCorp officials because the Department of State’s Office of Inspector General was beginning a
contract audit of DynCorp during the time of our fieldwork in Afghanistan. Instead we relied on
interviews with INL officials in Kabul, Afghanistan to obtain some of the information that we required.

We conducted this performance audit from September 2010 to July 2011, in accordance with generally
accepted government auditing standards and under the authority of Public Law 110-181, as amended,
the Inspector General Act of 1978, and the Inspector General Reform Act of 2008. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                           Page 8
APPENDIX II: ORGANIZATIONAL STRUCTURE OF THE MAJOR CRIMES TASK FORCE (MCTF)

Figure I shows the organizational structure of the MCTF, as of November 2010. This figure is followed by
a description of each MCTF unit.


Figure I: MCTF Organizational Structure




Source: FBI



MCTF Deconfliction Analysis Unit

The mission of the Deconfliction Analysis Unit is to coordinate the flow of intelligence in the MCTF units.
The Deconfliction Analysis Unit acts as repository for all intelligence information received by the MOI
and NDS from various informant sources. The unit then processes and analyzes the information to
secure the identity of the informant source that reported the information. The information is then
recorded on an intelligence intake form and re-distributed to the relevant MOI and NDS unit(s) for



SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                          Page 9
action regarding the information. The Deconfliction Analysis Unit also provides information on cases
that need to be de-conflicted between the various MOI and NDS units. According to the FBI, all of these
activities are done in accordance with MOI and NDS internal policies and Afghan law.

MCTF Corruption Investigation Unit

The mission of the Corruption Investigation Unit is to conduct criminal investigations to substantiate
senior level corruption allegations throughout the Afghan Government. The MCTF Corruption
Investigation Unit combines the strengths of the MOI and NDS to form a joint law enforcement task
force to effectively combat high level corruption. Corruption Investigation Unit mentors meet daily with
their MOI and NDS MCTF counterparts to improve coordination and communication between technical
assets and street level investigators. Additionally, Corruption Investigation Unit mentors provide
specialized law enforcement training to MOI and NDS investigators on a daily basis through consultation
on pending investigations and advice on the use of sophisticated investigative techniques.

MCTF Kidnapping Investigation Unit

The mission of the MCTF Kidnapping Investigation Unit is to identify, locate and secure the safe release
of kidnapping victims; to detect, identify, locate, deter and/or arrest individuals and to disrupt groups
and enterprises engaged in kidnapping, threats of kidnapping, and attempted kidnappings throughout
Afghanistan; to coordinate and maintain liaison with other Afghan law enforcement/intelligence
agencies with overlapping or concurrent kidnapping jurisdiction; to maintain reports of nationwide
kidnapping and kidnapping trends; and to carry out other investigative and law enforcement activities
within its jurisdiction and in accordance with Afghan law at the direction of the Director of the MCTF
and/or Minister of the Interior.

MCTF Organized Crime Unit

The mission of the MCTF Organized Crime Unit is to investigate violations of Afghan criminal law. The
MCTF Organized Crime Unit is assigned to investigate cases, develop sources, gather evidence and
present to prosecutors cases that target dangerous individuals and highly sophisticated criminal
enterprises. According to the FBI, the cases are investigated and developed within the framework of
rules and procedures established by the Ministry of the Interior and National Directorate of Security,
which adhere to Afghan Law.

MCTF Training Unit

The training unit develops, facilitates and delivers enhanced investigative and operational instruction for
MCTF Ministry of Interior (MOI) and National Directorate of Security (NDS) investigators in support of
the mission to detect and investigate serious and complex Afghan crimes. The training unit takes a lead
role in ensuring the continued evaluation and assessment of training in the promotion of an accountable
and professionally focused MCTF investigative capability.




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                                        Page 10
APPENDIX III: COMMENTS FROM THE FEDERAL BUREAU OF INVESTIGATION




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force       Page 11
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force   Page 12
APPENDIX IV: COMMENTS FROM THE U.S. EMBASSY IN KABUL




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force   Page 13
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force   Page 14
APPENDIX V: COMMENTS FROM NATO TRAINING MISSION-AFGHANISTAN/COMBINED
SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force            Page 15
APPENDIX VI: COMMENTS FROM BUREAU OF INTERNATIONAL NARCOTICS AND LAW
ENFORCEMENT AFFAIRS




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force            Page 16
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force   Page 17
SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force   Page 18
                 (This report was conducted under the audit project code SIGAR-032A.)




SIGAR Audit-11-12 Anti-Corruption / Major Crimes Task Force                             Page 19
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
